No. _______________
IN THE
SUPREME COURT OF THE UNITED STATES
TROY KENDRICK, JR.,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari
to the United States Court of Appeals for the Fifth Circuit
CERTIFICATE OF WORD COUNT
NOW COMES Assistant Federal Public Defender Samantha J. Kuhn,
court-appointed counsel for Petitioner Troy Kendrick, Jr., who hereby certifies
pursuant to Supreme Court Rule 33.1(h) that the petition for writ of certiorari
contains 8,664 words, excluding the parts of the document that are exempted by Rule
33.1(d). I declare under penalty of perjury that the foregoing is true and correct.
Respectfully submitted this 2nd day of April, 2021.
/s/ Samantha Kuhn
SAMANTHA J. KUHN
Assistant Federal Public Defender
Counsel of Record
Office of the Federal Public Defender
500 Poydras Street, Suite 318
Hale Boggs Federal Building
New Orleans, Louisiana 70130
(504) 589-7930
samantha_kuhn@fd.org

